IN THE SUPREME COURT OF THE UNITED STATES

No. 20-622

AMAZON.COM, INC., et al.,

Petitioners,
Vv.

BERNADEAN RITTMANN, individually and on behalf of
all others similarly situated, et al.,

Respondents.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amici curiae and a member of the Bar of this
Court, certify that on this 9th day of December, 2020, three copies of the amicus brief
were mailed to the following:

David B. Salmons

Morgan, LEwIs & Bockius LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
david.salmons@morganlewis.com
Counsel for Petitioners

Shannon Liss-Riordan
LICHTEN & LISS-RIORDAN, PC
729 Boylston Street

Suite 2000

Boston, MA 02116
sliss@llrlaw.com

Counsel for Respondents
also certify that an electronic copy of the amicus brief was sent to each counsel

listed above, and that all parties required to be served have been served.

Dated: December 9, 2020

Cory L./Andrews

WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302
candrews@wlf.org

Counsel for Amici Curiae
